Case: 18-1335

Document: 34

Filed: 06/05/2019

Pages: 15

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 18-1335
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
PAUL HUSKISSON,
Defendant-Appellant.
____________________
Appeal from the United States District Court for the
Southern District of Indiana, Indianapolis Division
No. 1:16CR00048-001 — Sarah Evans Barker, Judge.

____________________
ARGUED JANUARY 14, 2019 — DECIDED JUNE 5, 2019
____________________
Before WOOD, Chief Judge, and BRENNAN and ST. EVE, Circuit Judges.
BRENNAN, Circuit Judge. Paul Huskisson appeals his conviction for possession with intent to distribute methamphetamine. He argues government agents illegally obtained the
drug evidence used to convict him when they raided his
house without a warrant and saw drugs in his kitchen. The
government concedes the illegal entry, but counters that a
later-issued search warrant rendered the drug evidence

Case: 18-1335

Document: 34

Filed: 06/05/2019

2

Pages: 15

No. 18-1335

admissible. We consider whether after the illegal entry the exclusionary rule applies to the methamphetamine found in
Huskisson’s house.
I. Background
A. The Search and Seizure
On February 5, 2016, Drug Enforcement Administration
(DEA) agents arrested Anthony Hardy on drug conspiracy
charges and related offenses. Seeking to cut a deal, Hardy immediately admitted his role in the conspiracy, led DEA agents
to his drugs and guns, and rolled over on two local drug dealers. One of those dealers was Paul Huskisson. Huskisson was
previously unknown to the Indianapolis DEA task force, but
Hardy provided plenty of intelligence on his dealings with
Huskisson, including that:
•

•
•

Hardy purchased varying quantities of methamphetamine from Huskisson six times over the preceding five months, for $8,000 per pound.
Hardy bought methamphetamine both at Huskisson’s house and at a car lot Huskisson owned.
Huskisson told Hardy that Huskisson’s source expected a shipment of ten to twelve pounds of
methamphetamine the next day, February 6.
Hardy believed he could buy some or all of that
methamphetamine from Huskisson.

As further proof of Huskisson’s involvement in the drug
conspiracy, Hardy called Huskisson that day. DEA agents, including Special Agent Michael Cline, listened to and recorded

Case: 18-1335

No. 18-1335

Document: 34

Filed: 06/05/2019

Pages: 15

3

that conversation with Hardy’s consent. On the call, Huskisson agreed to deliver ten to twelve pounds of methamphetamine to Hardy. 1
The next day, Hardy and Huskisson arranged the details
of the transaction through a series of telephone calls (again,
recorded by the DEA with Hardy’s consent). In all, Cline listened in on nine phone calls between the two. Huskisson and
Hardy agreed the drug deal would occur at Huskisson’s
home that night. At that point, the DEA agents did not apply
for a search warrant, believing they needed to corroborate
that there was methamphetamine at Huskisson’s residence
before filing the application.
Hardy stayed with Cline until around 5:30 p.m., when
Hardy left for Huskisson’s house. Cline tailed Hardy’s car until it arrived at Huskisson’s house about ten minutes later.
Cline waited in his car and watched Hardy enter the house,
with an entry team on standby. This entry team comprised
DEA agents and local law enforcement, including Indiana
State Police detective Noel Kinney.
At 6:15 p.m., Cline saw a car pull into the house’s driveway. Two men (later identified as Jezzar Terrazas-Zamarron
and Fredi Aragon) got out of the car with a cooler, approached the house, and entered. Ten minutes later, Hardy

1 Hardy asked Huskisson, “You got any?” Huskisson replied, “I guar-

antee you it will be here tomorrow… I talked to the dude.” Hardy then
asked, “We doing the ten or the twelve?” and Huskisson replied, “It’ll be
either the ten or the twelve.” Hardy later explained to the DEA agents that
the “ten or the twelve” referred to ten or twelve pounds of methamphetamine arriving from Huskisson’s source the next day.

Case: 18-1335

4

Document: 34

Filed: 06/05/2019

Pages: 15

No. 18-1335

walked outside and gave a prearranged signal to indicate he
had seen methamphetamine in the house.
Once Hardy gave the signal, Cline ordered the entry team
to enter Huskisson’s house and secure the scene. At the time,
no search warrant had been issued. The entry team entered
the house and arrested Terrazas, Aragon, and Huskisson,
who refused to consent to a search of his residence. Upon entry, officers saw in plain sight in the kitchen an open cooler
with ten saran-wrapped packages of a substance which field
tested positive for methamphetamine. The three men were
taken into custody. Meanwhile, Cline remained outside, pretending to arrest Hardy to disguise his role as an informant.
Cline then left with Hardy to prepare applications for search
warrants for Huskisson’s house and his workplace.
Later that night, DEA agents filed the warrant application
for Huskisson’s house. The application detailed Hardy’s history of drug deals with Huskisson, as well as the many phone
calls between Hardy and Huskisson in the last twenty-four
hours. The application also included Hardy’s description of
what transpired while he was inside Huskisson’s house:
when Hardy arrived, Huskisson called his suppliers and told
Hardy they would arrive shortly. Two minutes later, Terrazas
came to the door and explained he had five pounds of methamphetamine, only half of what Huskisson had expected.
After speaking with Huskisson, Terrazas placed a phone call
and Aragon walked in with a cooler. Aragon took ten saranwrapped packages out of the cooler that appeared to Hardy
to be methamphetamine. Hardy then went outside to signal
Cline.

Case: 18-1335

Document: 34

Filed: 06/05/2019

No. 18-1335

Pages: 15

5

In addition to this information, the warrant application
contained the following two sentences that underlie this appeal: “The law enforcement officers observed an open cooler
with ten saran wrapped packages that contained suspected
methamphetamine. The suspected methamphetamine later
field tested positive for the presence of methamphetamine.”
The magistrate judge issued a search warrant for Huskisson’s
house around 10:30 p.m. the night of Huskisson’s arrest,
about four hours after the initial entry.
B. District Court Proceedings
Huskisson was indicted for possessing with the intent to
distribute 500 grams or more of methamphetamine, in violation of 21 U.S.C. § 841(a)(1). Before trial, Huskisson moved to
suppress the methamphetamine evidence, arguing it was
found after the DEA entry team entered his house without a
warrant and without any exigent circumstances, and that
DEA agents had included tainted evidence from the illegal
search in their warrant application. The district court held a
suppression hearing. Cline was unavailable to testify, so
Detective Kinney took the stand instead.
On the topic of the warrant application, Kinney testified
inconsistently, contradicting himself and other government
evidence. At first, he testified the task force’s plan was to
apply for a warrant if Huskisson refused consent to search,
regardless of whether they saw any evidence of drug activity
within the house:
KINNEY: Depending on the conversation with
Mr. Huskisson, if he granted consent to search,
we would continue the search of the residence.

Case: 18-1335

Document: 34

Filed: 06/05/2019

6

Pages: 15

No. 18-1335
If he didn’t, we would secure the residence and
obtain a search warrant.

But later Kinney suggested the plan was to apply for a
warrant only if the entry team found methamphetamine in
Huskisson’s home and Huskisson refused consent to search:
DEFENSE COUNSEL: And that after entering
and securing that residence, you were going to
ask for consent to search from Mr. Huskisson?
KINNEY: Yes, should we find the methamphetamine, gather a consent to search. If it was not
granted, obtain a search warrant.
DEFENSE COUNSEL: Okay. So if you didn’t
get consent, you were going to start the process
for obtaining a warrant?
KINNEY: Yes.
DEFENSE COUNSEL: So no part of the plan
was to start the process for obtaining a warrant
prior to entry into the [Huskisson] residence?
KINNEY: That’s correct, yes.
The district court denied Huskisson’s motion to suppress,
finding Kinney’s first statement to be more accurate and more
consistent with the other evidence presented by the government. The district court found Cline “planned to and would
have sought a search warrant regardless of the discovery of
the methamphetamine packages,” and that the warrant appli-

Case: 18-1335

Document: 34

Filed: 06/05/2019

No. 18-1335

Pages: 15

7

cation was sufficient to establish probable cause “even without those references [to the methamphetamine seized after the
illegal entry].” Order Den. Mot. to Suppress at 9–10, ECF No.
76.
The case went to a two-day jury trial, during which three
DEA agents, including Cline, testified about their plan to
apply for a search warrant. All three testified the entry was
intended only to “secure the residence while the search warrants were getting prepared and approved,” and that the
entry team “waited for the search warrant to be signed” after
entry. None of the other agents suggested they intended to
apply for a warrant only if methamphetamine was found. The
jury found Huskisson guilty and the district court imposed a
twenty-year mandatory minimum sentence under 21 U.S.C.
§ 841(b)(1)(A)(viii). This appeal followed.
II. Discussion
Huskisson challenges the denial of his motion to suppress
on two grounds: that the warrantless entry violated the
Fourth Amendment, and that the search warrant does not satisfy the independent source doctrine. There is no dispute that
law enforcement entered Huskisson’s house illegally: entering a home without a warrant is directly proscribed by the
language of the Fourth Amendment, which guarantees “[t]he
right of the people to be secure in their … houses … against
unreasonable searches and seizures … .” Evidence from the
ensuing search may still be admissible, however, if the independent source doctrine applies. On appeal, we review the
district court’s findings of fact for clear error and its legal rulings de novo. United States v. Etchin, 614 F.3d 726, 733 (7th Cir.
2010). We review de novo a district court’s determination that

Case: 18-1335

8

Document: 34

Filed: 06/05/2019

Pages: 15

No. 18-1335

probable cause supported the issuance of a search warrant.
United States v. Mullins, 803 F.3d 858, 861 (7th Cir. 2015).
As a general matter, the exclusionary rule prohibits
introduction of evidence that the police obtained illegally.
Mapp v. Ohio, 367 U.S. 643, 655 (1961). But this rule has exceptions. Relevant here is the independent source doctrine,
which holds that illegally obtained evidence is admissible if
the government also obtains that evidence via an independent
legal source, like a warrant. See Murray v. United States, 487
U.S. 533, 542 (1988) (allowing the admission of evidence
found in plain sight during an illegal entry that was later obtained legally); Segura v. United States, 468 U.S. 796, 814 (1984)
(allowing the admission of evidence found in a home that was
first entered illegally, but later entered based on a search warrant “wholly unconnected” to the initial, illegal entry). The
independent source doctrine recognizes that the goal of the
exclusionary rule is to put “the police in the same, not a worse,
position than they would have been in if no police error had
occurred.” Nix v. Williams, 467 U.S. 431, 443 (1984); see also
Murray, 487 U.S. at 537.
The government urges us to apply the independent source
doctrine here, arguing that the warrant obtained after the illegal entry was an independent legal source of the methamphetamine evidence. Huskisson disagrees, arguing that the
warrant application referenced the illegally obtained evidence, so it could not be a legal source. 2 Under Murray, to decide whether the warrant is an independent legal source, we

2

To this point, Huskisson also argues that the independent source
doctrine should not apply at all in cases of flagrant police misconduct,
such as entering a home without a warrant. See United States v. Madrid, 152

Case: 18-1335

No. 18-1335

Document: 34

Filed: 06/05/2019

Pages: 15

9

ask two questions: first, did the illegally obtained evidence
affect the magistrate’s decision to issue the warrant? And
second, did the illegally obtained evidence affect the government’s decision to apply for the warrant? Murray, 487 U.S. at
542; see also United States v. Markling, 7 F.3d 1309, 1315–16 (7th
Cir. 1993); Etchin, 614 F.3d at 736–38.
On the first question, we have addressed the effect of
tainted evidence on warrant applications in two cases relevant here: United States v. Markling and United States v. Etchin.
In Markling, while the defendant stayed at a motel, its management decided to move his belongings to another room.
Police intercepted the motel staff in transit, illegally searched
his briefcase in the motel hallway, found drug paraphernalia
inside, and referenced that discovery in the warrant application to search his motel room. Markling, 7 F.3d at 1311.
We applied the independent source exception from Murray in Markling. To determine whether the magistrate judge’s
decision to issue the warrant was affected by the mention of
the illegal evidence, we asked whether, “even without the [illegal evidence], [the] warrant application established probable cause to search Markling’s hotel room.” 7 F.3d at 1316. We

F.3d 1034, 1041 (8th Cir. 1998) (adding a narrow exception to the independent source doctrine when “police officers exploit their presence in the
home”). But as we explain below, our circuit applies the independent
source doctrine to all cases where the warrant passes the Supreme Court’s
test in Murray. Our precedent therefore bars us from applying the “flagrant misconduct standard” of Madrid, a standard that the Eighth Circuit
itself has limited to narrow circumstances of egregious police misconduct.
See, e.g., United States v. Swope, 542 F.3d 609, 616–17 (8th Cir. 2008) (applying independent source doctrine even though the warrant application
contained illegally obtained information).

Case: 18-1335

Document: 34

10

Filed: 06/05/2019

Pages: 15

No. 18-1335

based this approach on other circuits’ precedent and the Supreme Court’s reasoning in Franks v. Delaware, 438 U.S. 154
(1978). Franks held that when deliberately or recklessly false
information is included in a warrant application, “the warrant
is still valid if the other information in the application, standing alone, is sufficient to establish probable cause.” Markling,
7 F.3d at 1316 (citing Franks, 438 U.S. at 171–72). We concluded
that the same reasoning applied to cases where illegally obtained evidence is included in the warrant application:
If we may uphold a warrant based on an application including knowingly false information if
the other information in the application establishes probable cause, it is logical to conclude
that we may uphold a warrant based on an application including illegally obtained information under the same circumstances.
Markling, 7 F.3d at 1316.
In the second relevant case, Etchin, police illegally entered
the defendant’s apartment, then applied for a search warrant
and mentioned evidence obtained during the illegal entry in
the warrant application. Etchin, 614 F.3d at 737. The tainted
evidence referenced was largely immaterial: for example, the
warrant application included the layout of Etchin’s apartment
seen during the illegal entry, but did not mention the marijuana the officers saw in plain view during that entry. Id. at
737-38. Despite the intrusion upon the sanctity of the home,
which “is sacred in Fourth Amendment terms,” Segura, 468
U.S. at 810, we held the warrant was still an independent
source, because the tainted evidence included “was not an essential factor in the probable cause analysis.” Etchin, 614 F.3d
at 737. Thus, “the link between the initial entry and the later-

Case: 18-1335

No. 18-1335

Document: 34

Filed: 06/05/2019

Pages: 15

11

discovered evidence was ‘sufficiently attenuated to dissipate
the taint’ of the illegal search … .” Id. at 738 (quoting Segura,
468 U.S. at 815). We did not comment in Etchin on what the
outcome would have been had the warrant application mentioned the marijuana in plain view.
This case presents factual elements similar to those in
Markling and Etchin. Here, the DEA entry team violated the
sanctity of Huskisson’s home by entering without a warrant,
which “is a central concern of the Fourth Amendment.”
Etchin, 614 F.3d at 733. Then, as in Markling, the government
included the methamphetamine evidence they found in the
search warrant application, evidence that was highly probative of probable cause.
With Murray as our direction, we apply the Franks-style
analysis adopted in Markling, because doing otherwise would
put the government in a worse place than they would have
been absent the illegal search. See Murray, 487 U.S. at 541 (“Invoking the exclusionary rule would put the police (and society) not in the same position they would have occupied if no
violation occurred, but in a worse one.”). We thus agree with
several other circuits that, to determine whether the inclusion
of tainted evidence in the warrant application affected the
magistrate’s decision to issue a search warrant, we evaluate
whether the warrant application contained sufficient
evidence of probable cause without the references to tainted
evidence, even when that tainted evidence was recovered
from an illegal entry into a home. See Markling, 7 F.3d at 1316;
see also United States v. Dessesaure, 429 F.3d 359 (1st Cir. 2005)
(affirming the admissibility of drug evidence found during an
illegal search of a home that was mentioned in the warrant
application); United States v. Jenkins, 396 F.3d 751 (6th Cir.

Case: 18-1335

12

Document: 34

Filed: 06/05/2019

Pages: 15

No. 18-1335

2005) (affirming the admissibility of drug evidence found
during an illegal search of a hotel room, even when it was
orally mentioned to the magistrate judge at the warrant application hearing); United States v. Herrold, 962 F.2d 1131 (3d Cir.
1992) (affirming the admissibility of drug evidence found
during an illegal search of defendant’s mobile home that was
included in the warrant application).
With this legal standard in mind, we return to the facts before us to evaluate probable cause. In the district court,
Huskisson did not dispute the warrant application submitted
to the magistrate judge contained enough information to establish probable cause “to believe that [the entry team] would
discover evidence of a crime [inside] at the moment that they
knocked on [his] door.” Etchin, 614 F.3d at 735. 3 Even if he
had, the search warrant application contained plenty of untainted evidence of probable cause. It detailed Hardy’s initial
admissions to agent Cline about his drug-dealing history with
Huskisson, Hardy’s nine phone calls with Huskisson,
Hardy’s signal to Cline, and Hardy’s account of what he saw
in Huskisson’s house after he arrived. Presented with that
amount and nature of evidence, the magistrate judge would
have issued the search warrant even without the discussion
of the field-tested methamphetamine. Cf. Dessesaure, 429 F.3d
at 368–69.
That settled, we address the second question of Murray:
did the DEA’s illegal entry and field test affect the govern-

3

Huskisson admitted probable cause at the suppression hearing. See
Supp. Tr. at 66–67, ECF No. 207 (“There was probable cause, but I don’t
believe that justified the entry … .”).

Case: 18-1335

No. 18-1335

Document: 34

Filed: 06/05/2019

Pages: 15

13

ment’s decision to apply for the warrant? On this point, Detective Kinney gave conflicting testimony. Initially, Kinney
testified the DEA task force planned to apply for a warrant
regardless of finding methamphetamine during the illegal entry; the only variable was whether Huskisson would give his
consent to a search. Later, Kinney testified the plan was to
apply for a warrant only if methamphetamine was found and
Huskisson refused to give his consent to a search. If the latter
is correct, the search warrant would fail under Murray because the illegally obtained evidence would have affected law
enforcement’s decision to apply for a warrant and the methamphetamine would be inadmissible. Huskisson urges us to
reconsider the district court’s resolution of this conflicting testimony and to credit Kinney’s latter interpretation of events.
We disturb a district court’s factual determinations only
for clear error. United States v. Terry, 915 F.3d 1141, 1144 (7th
Cir. 2019). The threshold is high: factual findings are “clearly
erroneous only if, after considering all the evidence, we
cannot avoid or ignore a definite and firm conviction that a
mistake has been made.” United States v. Burnside, 588 F.3d
511, 517 (7th Cir. 2009) (internal citations and quotation marks
omitted); see also United States v. Thurman, 889 F.3d 356, 366
(7th Cir. 2018) (noting that we defer to district courts for
credibility determinations “because, unlike our review of
transcripts, the district court had the opportunity to listen to
testimony and observe the demeanor of witnesses at the suppression hearing”) (internal citations and quotation marks
omitted).
Huskisson’s protests do not clear that bar. The district
court faithfully applied the standards we laid out in Markling
and Etchin to determine the government’s motives in filing

Case: 18-1335

Document: 34

Filed: 06/05/2019

14

Pages: 15

No. 18-1335

the search warrant application. The court carefully weighed
the evidence from both sides; when faced with two inconsistent statements from the same witness, the court credited
one based on the totality of the evidence. In so doing, the district court concluded that an errant statement by Detective
Kinney did not outweigh the other evidence of the government’s plan to request a search warrant, regardless of what
they found in the house. This was not a “one-off,” ill-considered decision by the district court. Rather, before, during, and
after the jury trial, the court closely tracked the issue with its
superior vantage point hearing and seeing the witnesses and
presiding over the presentation of all the evidence. 4 This decision was well-reasoned and well-supported, so we do not
reverse it.
III. Conclusion
All agree: the DEA entry team entered Huskisson’s house
unlawfully. We do not condone this illegal behavior by law
enforcement; the better practice is to obtain a warrant before
entering a home. Ordinarily, the evidence found here would
be excluded. But because the government had so much other
evidence of probable cause, and had already planned to apply
for a warrant before the illegal entry, the evidence is admissible. Though the government should not profit from its bad
behavior, neither should it be placed in a worse position than
4

See Order Den. Mot. to Suppress at 9–10, ECF No. 76; Order Den.
Pretrial Mot. at 6, ECF No. 165 (denying defendant’s motion to reconsider
denial of suppression motion); Trial Tr. vol. 2 at 298–99, ECF No. 211 (posttrial order again denying motion to suppress). Additionally, as noted
above, at trial three DEA agents testified the plan was always to seek a
warrant once Hardy had confirmed there were drugs in Huskisson’s
home.

Case: 18-1335

No. 18-1335

Document: 34

Filed: 06/05/2019

Pages: 15

15

it would otherwise have occupied. See Murray, 487 U.S. at 542.
Accordingly, we AFFIRM the district court.

Case: 18-1335

Document: 35

Filed: 06/05/2019

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
June 5, 2019

Before:

DIANE P. WOOD, Chief Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
AMY J. ST. EVE, Circuit Judge

UNITED STATES OF AMERICA,
Plaintiff - Appellee
No. 18-1335

v.
PAUL HUSKISSON,
Defendant - Appellant

Originating Case Information:
District Court No: 1:16-cr-00048-SEB-TAB-1
Southern District of Indiana, Indianapolis Division
District Judge Sarah Evans Barker

The judgment of the District Court is AFFIRMED in accordance with the decision of this court
entered on this date.

form name: c7_FinalJudgment(form ID: 132)

